No. __-____

In the Supreme Court of the United States
ROBERT H. HEALY,
v.

Petitioner,

LEDURA WATKINS,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SIXTH CIRCUIT COURT OF APPEALS
CERTIFICATE OF WORD COUNT
OF PETITION FOR A WRIT OF CERTIORARI
CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF WORD COUNT OF
PETITION FOR WRIT OF CERTIORARI
As required by Supreme Court Rule 33.1(h), and
Orders of this Court dated April 15, 2020, I declare
that the Petition for a Writ of Certiorari to the Sixth
Circuit Court of Appeals being filed herewith is 5,738
words, excluding parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: August 13, 2021

